                                                                                           Office of Inspector General

                                                                                           U.S. Department of Homeland Security
                                                                                           1111 Broadway, Suite 1200
                                                                                           Oakland, California 94607




                                                 July 27, 2004


MEMORANDUM FOR:                         John E. Pennington
                                        Regional Director
                                        FEMA Region X




FROM:                                   Robert J. Lastrico
                                        Field Office Director
                                        Office of Audits

SUBJECT:                                Audit of King County
                                        Seattle, Washington
                                        Public Assistance Identification Number 033-00000
                                        FEMA Disaster Number 1159-DR-WA
                                        Audit Report Number DS-16-04

The Office of Inspector General (OIG) audited public assistance grant funds awarded to King
County, Seattle, Washington (County). The objective of the audit was to determine whether the
County expended and accounted for Federal Emergency Management Agency (FEMA) funds
according to federal regulations and FEMA guidelines.

The County received an award of $4.6 million from the State of Washington, Emergency
Management Division (EMD), a FEMA grantee, for debris removal, emergency protective measures,
and permanent repairs to facilities damaged by winter storms that precipitated land slides, mud
slides, and flooding. The incident period began on December 26, 1996, and continued through
February 10, 1997. The award provided 75 percent federal funding for 56 small projects and 18 large
projects.1 The audit covered the period of December 26, 1996, to September 20, 2002, and included
a review of eight large projects with a total award of $3.4 million (see Exhibit).

The OIG performed the audit under the authority of the Inspector General Act of 1978, as amended,
and according to Government Auditing Standards issued by the Comptroller General of the United
States. The audit included a review of FEMA, EMD, and County records, a judgmental sample of
project expenditures, and other auditing procedures considered necessary under the circumstances.




1
    Federal regulations in effect at the time of the disaster set the large project threshold at $46,000.
                                           RESULTS OF AUDIT

The County claimed $527,908 in ineligible, excessive, or unsupported costs for six of the eight
projects reviewed (FEMA’s share - $395,931). Specifically, the OIG questions $337,135 of
ineligible ground stabilization costs, $150,984 of ineligible project charges, $18,737 of excessive
force account equipment charges, $10,677 of cost associated with accounting errors, and $10,375 of
unsupported costs.

Finding A – Ineligible Ground Stabilization Costs

The County’s claim for project 592442 included $337,135 in ineligible ground stabilization costs
resulting from an unapproved change in project scope. According to Title 44, Code of Federal
Regulations, Section 206.223(a)(1) [44 CFR § 206.223(a)(1)], to be eligible for financial assistance,
an item of work must be required as a result of the major disaster event. Further, 44 CFR § 206.226
requires that eligible facilities generally be restored on the basis of the design of such facilities as
they existed immediately prior to the disaster. Lastly, according to FEMA’s 1995 Landslide Policy,3
the County is responsible for the cost of stabilizing a site when the disaster damage is associated
with a pre-existing, identified, and unstable ground condition.

•   Original scope of work and funding history. The original scope of work for the project (Damage
    Survey Report [DSR] 59243) entailed the restoration of approximately 800 lineal feet of storm
    drain damaged by the disaster including surface restoration and stabilization. FEMA’s scope of
    work and estimated project costs were based on a repair recommendation proposed by the
    County’s geo-technical consultant (consultant) in February 1997. The consultant recommended
    replacement of the existing storm drain with a surface mounted drain using high-density
    polyethylene (HDPE) pipe instead of the corrugated metal pipe that was damaged during the
    disaster. The consultant noted that the advantage of using HDPE pipe was that the joints were
    fused and nearly as strong as the pipe itself, the pipe could be suspended for short distances
    without support, and using HPDE pipe would bring the storm drain up to the County’s
    engineering standard for steep and unstable slopes. FEMA estimated the original scope of work
    for this project at $122,200 and prepared DSR 59243 on April 9, 1997, as follows:

       Original Scope of Work                                           Estimated Costs
       Catch Basin Type 2 (with additional re-enforcing)                     $ 8,000
       12" Diameter HDPE pipe (including trenching)                            64,000
       Pipe Anchors                                                            24,000
       Surface Restoration and Stabilization                                   25,000
       Catch Basin Type 1                                                       1,200
       Total                                                                 $122,200

    However, funding was not provided to the County. Rather, the DSR was placed in suspension
    pending the County’s submittal of a design for the project. On April 23, 1997, FEMA provided
    initial funding of $10,800 under DSR 59244 for project engineering and design services. On
    October 27, 1997, the County submitted project plans and specifications to EMD for a scope of


2
  The Damage Survey Reports (DSRs) prepared for this project included primary DSR 59244 (engineering and design
services) and supplemental DSRs 59243, 27284, and 27121.
3
  Landslide Policy Relating to Public Facilities – November 30, 1995

                                                        2
    work different than the project described above. At the same time, the County notified EMD that
    it had proceeded with the work.

    On January 14, 2000, the County prepared a Notice of Completion and Acceptance and certified
    that the project had been completed and accepted as of December 4, 1997.4 On January 23, 1998,
    FEMA removed DSR 59243 from suspension and approved costs of $327,340. On November 19,
    1998, FEMA approved DSR 27284 to fund increased project costs of $186,161 for items not
    previously addressed. These items included gabion baskets instead of compacted fill, force
    account labor and equipment, additional consultant costs, additional contract costs associated
    with relocating the pipe, and the addition of gravel and sub-drains. Following FEMA approval of
    an additional $59,106 (DSR 27121) at project closeout, final project costs were $583,407.

•   Actual scope of work performed and ineligible ground stabilization costs. The work completed
    by the County while the project was suspended included significant changes in the original scope
    of work and significant cost increases. The work did not include restoring the surface mounted
    storm drain to pre-disaster condition as envisioned in the original DSR. Rather, the project
    included a buried storm drain and ground stabilization work with additional costs totaling
    $337,135. The ineligible ground stabilization work consisted of contract, engineering, consultant,
    and survey costs as depicted below:


                                                                                        Additional
     Work Category                                                                        Costs
     Contract Bid Item #7 – Backfill Materials Special Gravel Barrow
       (3,330 tons at $40/ton)                                                            $133,200
     Contact Bid Item #13 – 6" Quarry Rocks (340 tons at $36/ton)                           12,240
     Contract Bid Item #31 – Coconut Fiber Matting (1,610 S.Y. at $4/SY)                     6,440
     Contract Change Order #1 – Additional Backfill Materials – Special
       Gravels Barrow (1,712 tons)                                                          74,367
     Contract Change Order #2 – Gabion Wall                                                 14,781
     Contract Change Order #3 - Fills for Keystone Wall                                      1,515
     Prorated Costs for Contractor Mobilization & Clearing                                  26,680
     Sub-Total                                                                            $269,223
     Engineering, Consultant, Survey
     Prorated Costs for Engineering, Geo-technical, and Surveying                           67,912
     Total                                                                                $337,135

    FEMA, EMD, and County records did not support or justify the eligibility of the work
    accomplished by the County. Based on the County’s plans and specifications for the project,
    much of the work was specific to ground stabilization, an item of work not eligible for disaster
    funding. In fact, a separate geo-technical evaluation report of the area, dated March 14, 1997
    disclosed, “The entire area has experienced significant land sliding in the Advance Outwash and
    the units below it. The area is marginally stable in its current condition.”




4
 While the County certified that the project was completed on December 4, 1997, the Project Completion and
Certification Report (Report P.4) forwarded by EMD to FEMA indicated that the work was completed on July18, 1998.

                                                        3
    On March 24, 2004, the OIG held a joint meeting with FEMA, EMD, and County officials. At
    this meeting, County officials explained the piping was relocated to a more stable hillside area
    and was not placed back to its pre-disaster location.

•   Acceptance of the scope of work as a hazard mitigation measure. The change in scope of work
    discussed above was recognized by FEMA as a mitigation measure in the narrative comments
    supporting DSR 59243 when it was removed from suspension and funded on January 23, 1998.
    It is unclear how the FEMA reviewer determined this work to be a mitigation measure when the
    project file and the DSR itself stated that there were no feasible mitigation opportunities
    available for this project. Nonetheless, a benefit/cost analysis, a primary tenet of approving
    mitigation measures, was performed and the measure was determined to be cost effective.
    However, the benefit/cost analysis did not include all costs associated with the measure, e.g.,
    additional excavation, special gravel barrow, 6"quarry rocks, coconut fiber matting, etc.
    Regardless of the cost effectiveness of the project as a mitigation measure, ground stabilization
    costs are generally not eligible for FEMA funding.

Summary. The OIG does not believe the work accomplished by the County should have been funded
by FEMA for the following reasons:

•   First and foremost, the work performed by the County did not restore the storm drain based on
    the design of that “facility” as it existed immediately prior to the disaster. The eligible work and
    estimated costs for restoring the storm drain were addressed in the original DSR and included a
    superior above ground pipe (HDPE), surface restoration, and anchoring of the new drainage
    system. The County realigned the new storm drain outside the original footprint and buried it.
    This resulted in ineligible ground stabilization and additional costs associated with engineering
    and design, contracting and contract management, and force account labor and equipment.

•   The County did not obtain prior FEMA approval for changes in the scope of work. According to
    44 CFR § 13.30(d) and (f), the County was required to obtain prior written approval from the
    awarding agency whenever any revision of the scope or objectives of a project is anticipated.
    While the original scope of work was specific as to the nature of the project, the County changed
    and improved the design and construction method without seeking approval from the Region.
    According to 44 CFR § 206.203(d)(1), if a subgrantee desires to make improvements, but still
    restore the pre-disaster function of a damaged facility (i.e., the storm drain), the grantee’s
    approval must be obtained, and funding for such improved projects will be limited to the federal
    share of the approved estimate of eligible costs.

•   The County did not request additional funding prior to incurring the additional costs. In fact, the
    County incurred most project costs while the project was in suspension. According to 44 CFR
    § 13.30(c)(2), the County was required to obtain prior written approval for any budget revision
    which would result in the need for additional funds. Further, the County did not request EMD
    approval of a budget/project revision. According to 44 CFR § 13.30(f)(3), a subgrantee (County)
    request for prior approval will be addressed in writing to the grantee (EMD), and EMD will
    obtain the federal agency’s (FEMA’s) approval before approving the subgrantee’s request.

•   According to 44 CFR § 206.204(e), subgrantees may find during project execution that cost
    overruns, due to such things as variations in unit prices and change in scope of eligible work, are
    necessary. In such cases, subgrantees are required to evaluate each overrun, and, when justified,

                                                    4
       submit a request for additional funding through the grantee to the Region for a final
       determination. While this project was suspended by FEMA, the County proceeded with the work
       and did not request additional funding until the project was completed, even though actual
       project costs were nearly 2.5 times the original FEMA project estimate when the project was
       removed from its suspended status.5

•      The project scope of work accomplished by the County constituted an “unapproved” improved
       project. Because improved projects restore facilities substantially beyond that which existed prior
       to a disaster, it was FEMA’s responsibility under the National Environmental Policy Act (NEPA)
       to ensure that any required environmental reviews were performed. According to 44 CFR § 10.8,
       early determination regarding NEPA documentation requirements helps ensure that the necessary
       documentation is prepared and integrated into the decision making process. While in certain
       circumstances 44 CFR § 10.8(d)(2)(xvi) allows for improvements and small-scale hazard
       mitigation measures to be categorically excluded from NEPA review requirements, this project
       did not qualify for a categorical exclusion because:

       o Improvements were accomplished by the County without FEMA’s approval,

       o The project had been suspended by FEMA when the County accomplished the work, and

       o FEMA did not adequately determine if the scope of work accomplished by the County had an
         adverse effect on the quality of the human environment.

       FEMA Environmental Policy Memorandum # 3, dated May 3, 1996, states, “It is FEMA’s policy
       that action initiated and/or completed without fulfilling the specific documentation requirements
       of NEPA may not be considered for funding.”

•      On October 28, 1997, FEMA’s Executive Associate Director, Response and Recovery
       Directorate, issued a memorandum to the Regional Directors addressing unapproved improved
       projects. That memorandum discussed situations in which subgrantees perform work well
       beyond approved scopes of work and make substantial improvements without obtaining grantee
       and FEMA approval. By doing so, the subgrantees deny FEMA the opportunity to comply with
       NEPA. The Executive Associate Director requested that regional public assistance officials
       notify subgrantees that they must receive approval from the grantees prior to initiating improved
       projects. Further, approval by the grantees is contingent upon notifying FEMA and obtaining
       NEPA clearance in order to prevent possible deobligation of all project funding.

County officials explained that the broken storm drain and water exiting the up-slope collection
system eroded the hillside to the extent that a 50-foot-high, near-vertical cut was created. The eroded
hillside deposited soft unstable soils in the existing pipe. According to these officials, to reinstall the
HDPE pipe in the pre-disaster location would have required substantial excavation at greatly
increased cost. They also noted there were constructability issues associated with any repairs to the
existing corrugated metal pipe system. Despite these comments, the County did not provide the OIG
estimates for this ‘substantial excavation’ or for the repair of the pre-disaster storm drain at its
original location.


5
    Actual project costs of $583,407 were nearly 4.8 times the original estimate of $122,200 at project closeout.

                                                               5
County officials further explained that a decision was made to relocate the storm drain to the eastern
edge of the eroded area, an area purported to be more stable. The new HDPE pipe was routed around
the eroded area to minimize the severity of the slope (accomplished by the addition of a gabion wall
at the head of the eroded area), to ensure safety, constructability, and hillside stability. The OIG
noted that the County did significant excavation work at the new location to stabilize the slope in
that area.

The OIG understands the County’s decision to stabilize the hillside and relocate the storm drain.
However, the issue remains that the County claimed ineligible ground stabilization costs caused by a
change in project scope. Therefore, the OIG questioned $337,135; which consisted of $269,223 for
construction costs and $67,912 for related engineering, design, geo-technical, and surveying costs.

Finding B - Ineligible Project Charges

The County’s claim contained $150,984 in project costs that were not disaster related. According to
44 CFR § 206.223(a)(1), to be eligible for financial assistance, an item of work must be required as
the result of the major disaster event. Also, FEMA’s Public Assistance Guide (FEMA 286, page 81)
states that subgrantees will be reimbursed only for those costs incurred up to the latest approved
completion date for a particular project.

•   The County claimed $42,112 in costs not related to project 22715. The charges included $29,149
    in force account labor costs and $12,963 in equipment costs incurred for projects 22167 and
    22714. These costs were not claimed against the correct projects because the two projects were
    closed before the expenditures were incurred. County officials agreed that the costs claimed did
    not relate to project 22715 but should be allowed since they were incurred for other
    FEMA-approved projects and were disaster related.

•   The award for project 23939 provided $379,500 for the removal of 22,000 cubic yards (CY) of
    sediment at Hidden Lake, including $49,500 provided for permits. FEMA and County records
    showed that Hidden Lakes required the removal of 33,000 CYs of sediment; however, since not
    all sediment could be associated to the disaster, FEMA and the County agreed to share the cost.
    FEMA agreed to pay for 22,000 CYs (or two-thirds) and the County would pay for 11,000 CYs
    (or one-third). At project closeout, the County claimed included $313,890 for the removal of
    only 10,000 CYs of sediment. Of the total amount claimed by the County, $2,230 was previously
    determined unallowable by FEMA, $4,149 was not identified to the disaster or approved in the
    project scope of work, and $102,493 was for non-disaster sediment removal costs. Therefore, as
    discussed below, the OIG questioned $108,872 in costs claimed against this project.

    o $2,230 related to the planting of native plants at the project site even though FEMA had
      previously advised the County that such costs were not allowable. The County agreed that
      the costs should not have been claimed.

    o $4,149 was for fence repairs, an item of work not identified to the disaster or approved in the
      project scope of work. The County agreed that the fence repairs were not included in the
      project scope.



                                                  6
    o $102,493 pertained to the cleanup of non-disaster sediment at Hidden Lake. Deducting the
      unallowable and ineligible costs identified above from the total amount claimed by the
      County resulted in sediment removal costs of $307,511 ($313,890 less $2,230 less $4,149).
      Since FEMA paid the entire claim and did not deduct the County’s agreed to share (1/3 of the
      costs), the OIG questioned $102,493 ($307,511 times .3333).

       County officials explained to the OIG that while only about 10,000 CYs of sediment were
       removed, they had not agreed to share the clean up cost with FEMA. These officials did not
       explain why clean up costs had remained relatively high, although less sediment was
       removed.

Since the County could not support that the project costs identified above were properly claimed or
were otherwise eligible, the OIG questioned a total of $150,984.

Finding C – Excessive Force Account Equipment Charges

The County’s claim for projects 22167, 22715, and 22714 included $18,737 in equipment charges in
excess of FEMA established rates. According to 44 CFR § 206.228(a)(1)(i), use of force account
equipment rates in excess of $75 per hour require FEMA approval, and the FEMA Schedule of
Equipment Rates should be the basis for reimbursement in all cases where an applicant does not
have rates established or approved under State guidelines. This regulation also provides that when an
applicant uses reasonable rates established or approved under State guidelines, reimbursement for
equipment that has an hourly rate of $75 or less shall be based on such rates. The following table
identifies the three projects and the questioned costs.

                                   Project        Force Account
                                   Number          Equipment
                                    22167             $ 8,563
                                    22715               9,119
                                    22714               1,055
                                      Totals          $18,737

County project records supporting the claim showed the County applied force account equipment
rates that exceeded rates established by FEMA. For example:

•   For project 22167, the County applied a rate of $26.45 per hour for a 1991 Caterpillar while the
    FEMA rate was $20.00 per hour.

•   For project 22715, the County applied a rate of $36.31 per hour for a 1984 Caterpillar while the
    FEMA rate was $23.00 per hour.

•   For project 22714, the County applied a rate of $15.91 per hour for a 5-yard dump truck while
    the FEMA rate was $11.00 per hour.

County officials stated that the rates claimed were developed using State guidelines that required the
exclusion of replacement costs, and that the rates were approved by EMD and FEMA. They
explained that while an audit opinion had not been obtained for the rates, County auditors normally

                                                  7
reviewed the rates during the County’s annual financial statement audits and the audits had not
reported any findings related to the rates. EMD provided the OIG with the State guidelines6 for
developing force account equipment rates. The guidelines did not include a specific methodology for
developing the rates nor did they require the exclusion of replacement costs. The guidelines
however, did require an annual review of the rates by the County’s legislative body.

The County did not provide the OIG with evidence that its rates were developed using the State
guidelines provided by EMD, that an audit of the rates was performed, or that the rates were
reviewed and approved by EMD and FEMA. Therefore, the $18,737 was questioned.

Finding D – Accounting Errors

The County’s claim for three projects included $10,677 in accounting errors. Details follow.

•     For project 30146, the County overpaid a contractor $6,963 due to various computation errors.

•     For project 22715, the County paid $3,062 twice for debris dumping costs and made a math error
      of $83 for a total of $3,145 on this project.

•     For project 22167, the County claim $569 in force account labor fringe benefits relating to force
      account labor costs previously disallowed by FEMA.

According to 44 CFR § 13.20(b)(1), the County is required to accurately report the results of
financially assisted activities. The County agreed with the questioned costs of $10,677 relating to
accounting errors.

Finding E – Unsupported Costs

The County’s claim for project 22715 included $10,375 of unsupported costs consisting of $10,169
in rental equipment costs and $206 in tree removal services. County accounting records did not
include invoices or similar documentation proving the costs were disaster related. According to
44 CFR § 13.20(b)(6), grantees and subgrantees must maintain accounting records that identify how
FEMA funds are used and must be supported by source documents such as cancelled checks and
paid bills. County officials agreed the $10,375 was claimed in error.

                                            RECOMMENDATION

The OIG recommends that the Acting Regional Director, FEMA Region X, in coordination with
EMD, disallow $527,908 of costs claimed by the County.

                 DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

The OIG discussed the audit results with FEMA, EMD, and County officials on March 24, 2004.
County officials agreed with findings D and E; and did not agree with findings A, B, and C.



6
    Revised Code of Washington, Sections 36.33A.010 and 36.33A.040

                                                         8
Please advise this office by September 27, 2004, of the actions taken to implement the
recommendation in this report. Should you have any questions concerning this report, please contact
me at (510) 627-7011. Key contributors to this assignment were Humberto Melara, Arona Maiava,
Antonio Fajardo, and Jeff Flynn.




                                                 9
                                                                               Exhibit

                                   Schedule of Audited Projects
                                           King County,
                                       Seattle, Washington
                        Public Assistance Identification Number 033-00000
                              FEMA Disaster Number 1159-DR-WA


              Project           Amount              Questioned     Finding
              Number           Awarded                Costs       Reference
               22167            $298,185              $9,132         C, D
               22714             160,756               1,055          C
               22715           1,445,081              64,751      B, C, D, E
               59244             583,407             337,135          A
               22436             262,864                    0
               23939             313,890             108,872          B
               30146             279,156               6,963          D
               74419              63,495                    0
               Totals         $3,406,834            $527,908


Finding Reference Legend:
A. Ineligible Ground Stabilization Costs
B. Ineligible Project Charges
C. Excessive Force Account Equipment Charges
D. Accounting Errors
E. Unsupported Costs




                                               10
